                                     NATIONAL SCIENCE FOUNDATION
                                     OFFICE OF INSPECTOR GENERAL
                                       OFFICE O F INVESTIGATIONS

                                CLOSEOUT MEMORANDUM

Case Number: A08030011
                                                                 11        Page 1of 1


    A Program Officer (PO) alleged a panelist had violated NSF' Conflict of Interest
    (COI) rules. PO said a PI1 called him and told him she had heard her proposal2 was
    ranked second, but was not going to be funded. The P I told PO a panelist, who did
    not review her proposal because he had declared a COI, informed her about the
    status of her proposal. PO said two panelists ( X 3 and Y4) declared COIs and recused
    themselves from the PI'S proposal; he indicated it was likely X, rather than Y, who
    informed the PI about the status of her proposal.
    We called the PI, who acknowledged calling PO, but said he misunderstood what
    she told him. She said she called PO because she had heard this proposal was going
    to rank lower than a n earlier version she submitted. Thus, she acknowledged she
    had talked to someone with non-public information from the panel. When asked,
    she claimed the person who told her was not a panelist, but rather a French
    researcher, whom she did not name. When asked specifically whether the French
    researcher was a panelist, and, if not, how he obtained the information about her
    proposal, she again claimed he was not a panelist or reviewer, denied any contact
    with any panelists regarding her proposal, and did not speculate a s to how the
    French researcher learned about her proposal.
    We talked to the PO, who was surprised the PI denied speaking with a panelist. He
    was sure she admitted to speaking with a panelist that had a COI and who told her
    her proposal's ranking (that was correct). However, because the PI denied any
    contact, and the PO has no evidence any specific panelist spoke with the PI, we are
    unable to identify any particular subject. Accordingly, this case is closed.




       1   (redacted).
       2   (redacted).
       3   (redacted).
       4   (redacted).
